Case No.
IN THE
SUPREME COURT OF THE UNITED STATES
Tom Jensen,
Plaintiff-Petitioner
vs.

Judge Hannah Lee Blumenstiel, U.S. Bankruptcy
Court, et al.
Defendants-Respondents
On petition for Writ of Certiorari to the
Court of Appeals of the Ninth Circuit, Case No.1817049
PETITION FOR WRIT OF CERTIORARI
Tom Jensen
P.O. Box 614
Oakland, CA 94604
(510) 325-3142
jenstomj@gmail.com
Petitioner in pro per

QUESTIONS PRESENTED FOR REVIEW
Is a Bankruptcy Court judge absolutely immune
from a complaint for injunctive and declaratory relief
for denial of public access to the court?
Should attorney disciplinary proceedings before a
judge in a District or Bankruptcy Court be secret?
Does the public have a right to submit reliable
complaints of attorney misconduct to the district
court, and does the court have a duty to duly
consider them?

LIST OF DEFENDANTS-RESPONDENTS
Hannah Lee Blumenstiel, Judge, U.S. Bankruptcy
Court, Northern District of California.
Judge James Donato, Judicial Liaison Judge to
Standing Committee on Professional Conduct, U.S.
District Court, Northern District of California.
Miles Ehrlich, Chairman of Standing Committee
on Professional Conduct, U.S. District Court,
Northern District of California.

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW .... page i
LIST OF DEFENDANTS-RESPONDENTS

ii

TABLE OF CONTENTS OF PETITION

iii

TABLE OF CONTENTS OF APPENDIX

iv

TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT LAW AND COURT RULES

1

STATEMENT OF THE CASE

2

REASONS WHY THE WRIT SHOULD BE
GRANTED

4

The Panel failed to follow its own precedent
on summary affirmation

4

Jensen did not have any other adequate or
proper remedy

6

Judge Blumenstiel is not entitled to absolute
judicial immunity for denial of public access
7
to the court
Secret attorney disciplinary Proceedings
are improper and unconstitutional
Local Rule 11-6(e) is not valid authority
for secret attorney disciplinary
proceedings.
Secret attorney disciplinary hearings
are inconsistent with prevailing
practice
iii

9

9

9

(c) Secret attorney disciplinary proceedings
10
are unconstitutional
Article III case or controversy "standing"
law is not applicable to denial of public
access to the court

12

Jensen's pending Motion is not moot

16

(a) The Court of Appeal's errors and its
failure to correct them impeaches the
Panel's and the Court's process
(b) The Motion provides evidence
supporting Jensen's standing

16
16

CONCLUSION

20

APPENDIX A - Orders of the Court
of Appeals

la

10/30/2019 Order Denying AppellantPetitioner's Petition for Panel Rehearing
and for Rehearing En Banc

la

6/24/2019 Order Granting AppelleeRespondents' Motion for Summary
Affirmance

2a

2/08/2019 Order Granting DefendantRespondents' Motion for Extension of
Time to File Answering Brief

4a

Appendix B - Judgment and Orders of the
District Court

5a

9/21/2018 Judgment in a Civil Case

5a

9/20/2018 Order Dismissing Action;
Directions To Clerk (Sua sponte dismissal
of J. Donato and Chairman Ehrlich)

6a

iv

8/27/2018 Order Dismissing First Amended
Complaint; Affording Plaintiff Limited
Leave to Amend (Sua sponte Dismissal of
7a
J. Blumenstiel)
Appendix C - Relevant Constitutional and
Statutory Law, and Rules of Court

lla

1. U.S. Constitution:
Article I § 8
Article III § 2
First Amendment

11a
12a
13a

2. 28 U.S.C. § 151

13a

3. 28 U.S.C. § 157(a) and (b)(1)

14a

4. 28 U.S.C. § 158(a)

14a

5. 28 U.S.C. § 1331

15a

6. 28 U.S.C. § 1361

15a

7. U.S. District Court, Northern District of
California, Civil Local Rule 11-6; U.S.
Bankruptcy Court, Northern District of
California, Local Rule 11-6 (same)

15a

Appendix D - Excerpts of Record

21a

Appellant's Motion To Remove Erroneous
Prior Case and to Correct Prejudicial
Listing, and Objection to Consideration
21a
of Prior Cases (filed 12/27/2018)
Appellant's Opening Brief
(filed 12/12/2018)

39a

TABLE OF AUTHORITIES
Federal Cases
Brandon v. Reynolds,
201 F.3d 194 (3d Cir. 2000)
5
Brown v. Crawford Co. Ga.,
9
960 F.2d 1002 (11th Cir. 1992)
Center for Auto Safety v. Chrysler Group. LLC,
8, 9, 14
809 F.3d 1092 (9th Cir. 2016)
Center for Constitutional Rights v. Lind, 954
5, 6, 9
F.Supp.2d 389 (D.Md. 2013)
Colorado River Water Conservation Dist. v. United
States, 424 U.S. 800 (1976)
Detroit Free Press v. Ashcroft, 303 F.3d 631
6, 9
(6th Cir. 2002)
10, 12, 13, 14
Ex Parte Wall, 107 U.S. 265 (1883)
12-13, 14
Flast v. Cohen, 392 U.S. 83 (1968)
Gorbach v. Reno, 219 F.3d 1087 (9th Cir. 2000)
9
15
Laird v. Tatum, 408 U.S 1 (1972)
Linda R.S. v. Richard D., 435 U.S. 614 (1982)
4
Mullis v. U.S. Bankruptcy Court, 828 F.2d 1385
4, 5, 6, 7, 12, 20
(9th Cir. 1987)
Newman v. Piggie Park Enterprises,
14
390 U.S. 400 (1968)
Northern Pipeline Construction Co. v. Marathon
Pipeline Co, 458 U.S. 50 (1982)
5, 7
6
Pulliam v. Allen, 466 U.S. 522 (1984)
Press Enterprises v. Superior Court,
9, 11
478 U.S. 1 (1986)
Richmond Newspapers v. Virginia,
6, 9
448 U.S. 555 (1980)
Robbins v. Spokeo, 867 F.3d 1108 (9th Cir. 2017) ... 12
Scripps-Howard Radio. Inc. v. FCC,
14
316 U.S. 4 (1942)
Scruggs v. Moellering, 870 F.2d 376 (7th Cir. 1989) ..6
vi

17
Stanley v. Illinois, 405 U.S. 645 (1976)
Supreme Court of Virginia v. Consumers Union
of United States. Inc., 446 U.S. 719 (1980) ... 8, 11
Thread v. U.S., 354 U.S. 278 (1957)
13
U.S ex rel. Girard Trust v. Helvering,
301 U.S. 540 (1937)
7
4
U.S. v. Hooton, 693 F.2d 857 (9th Cir. 1982)
U.S. v. Students Challenging Regulatory Agency
15
Procedures (Scrap), 412 U.S. 669 (1973) ...
Williams v. Pennsylvania, 136 S.Ct. 1899 (2016) .. 11
State Cases
Daily Gazette v. Committee on Legal Ethics,
326 S.E.2d 705 (W.Va. 1984)

10, 11

U. S. Constitution
1, 5, 6
1, 5, 12, 13, 17, 20
1, 3, 6, 11, 12, 13, 15

Article I
Article III
1st Amendment

Federal Statutory Law
1, 7
1, 7
1, 8
1
1, 5, 7
1, 5
5

28 U.S.C. §§ 151
157
158
1254
1331
1361
42 U.S.C. § 1983
Federal Rules of Civil Procedure
Rule 83

9
Local Court Rules

U.S. District Court, N. D. California,
Civil/Bankruptcy Local Rule 11-6
vii

2, 3, 8, 9

U.S. Court of Federal Claims, Rule 83.2(g)(2)

14

Codes of Judicial Conduct
ABA Model Code of Judicial Conduct
Code of Conduct of United States Judges

13, 15
13, 15

Other Authorities
ABA Lawyer Regulation for a New Century,
12
Sept. 18, 2018
ABA Model Rules for Lawyer Disciplinary
10
Enforcement
ABA [McKay] Commission on Evaluation of
10, 11
Disciplinary Enforcement (1991)
ABA Special (Clark) Commission on Evaluation
of Disciplinary Enforcement, Problems and
Recommendations in Disciplinary
10, 11
Enforcement (1970)
Harrison, Mark, Osborn Maledon, "Public
access to Attorney Disciplinary Proceedings
and Records." Paper produced for distribution
at the APRL Annual Meeting on Saturday,
10
August 1, 2009
Levin, Leslie; "Case for less Secrecy in Lawyer
Discipline," 20 Georgetown Journal of Legal
10, 11
Ethics 1, (2007)
Pether, Penelope; "Constitutional Solipsism:
Toward a Thick Doctrine of Article III Duty,
or Why the Federal Circuits' Nonprecedential
Status Rules Are (Profoundly) Unconstitutional,"
17 William and Mary Bill of Rights Journal,
17
955 (2009)
Stebner, Kathryn, Carmen Guadagni;
"An Unspoken Epidemic: Elder Neglect in
Assisted Living Facilities," San Francisco
19
Daily Journal, 6/28/2019
viii

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a Writ of Certiorari to review the judgment of the U.S. Court of
Appeals for the 9th Circuit, Case No. 18-17049.
OPINIONS BELOW
Orders of the Court of Appeals
10/30/2019 Order Denying Appellant-Petitioner's
Petition for Panel Rehearing and for Rehearing En
Banc. Appendix ("Appx.") la.
6/24/2019 Order Granting Appellee-Respondents'
Motion for Summary Affirmance. Appx.2a.
Judgment and Orders of the District Court
9/21/2018 Judgment in a Civil Case. Appx.5a.
9/20/2018 Order Dismissing Action; Directions To
Clerk (Sua sponte dismissal of J. Donato and Chairman Ehrlich). Appx.6a.
8/27/2018 Order Dismissing First Amended Complaint; Affording Plaintiff Limited Leave to Amend
(Sua sponte Dismissal of J. Blumenstiel). Appx.7a.
JURISDICTION
The order to be reviewed was filed and entered on
6/24/2019. The order denying Petitioner's Petition for
Rehearing and for Rehearing En Banc was filed and
entered on 10/30/2019. This Petition is timely filed.
Jurisdiction is under 28 U.S.C. § 1254(1).
RELEVANT LAW and COURT RULES
Articles I and III, and the 1st Amendment of the
United States Constitution; 28 U.S.C. §§ 151, 157(a)
and (b)(1), 158(a), 1331, and 1361, Appx. lla-15a;
and U.S. District Court for the Northern District of
1

California, Civil/Bankruptcy Local Rule 11-6 (Attorney Discipline), Appx. 15a-20a.
STATEMENT OF THE CASE
Petitioner, Plaintiff-Appellant Tom Jensen, was
barred from public access to a publicly scheduled and
docketed Bankruptcy Court proceeding (in re
Schwartz) - a disciplinary proceeding against an
attorney. At the hearing, respondent Bankruptcy
Court Judge Blumenstiel barred Jensen and the
public from the proceeding citing Civil/Bankruptcy
Local Rule 11-6 (Attorney Discipline) as her
authority for doing so. Appx.51a, ¶8 (AOB-Statement
of the' Case). The previously public docket of the
proceeding and all its filed papers were subsequently
sealed from public view. Opp.' 14-15(ECF), sub-§3.
The proceeding, however, was held in violation of the
procedural mandates of Rule 11-6(e). Appx.50a-51a,
¶ 6 (AOB-Statement of the Case).
Jensen then submitted a complaint of attorney
misconduct related to the In, re Schwartz case,
supported by reliable evidence,2 and of being bared
from the In re Schwartz proceeding, to the Chairman
of the District Court's Standing Committee on
1 Appellant's Opposition to Appellees' Motion for Summary
Affirmation and Motion to Stay Briefing, DktEntry 16.
2 The opposing attorneys in the bankruptcy case from which
the In re Schwartz case arose, abused the unlawful detainer
process, and therefore had no right to request relief from the
stay, and made false statements and misrepresentations in
their motion asserting they did. See Appx.46a-47a; 49a-51a,
¶¶2-5 (AOB-Introduction-Statement of the Case). These facts
show that the opposing attorneys who made the complaint
against Schwartz had unclean hands, and that their conduct
was prejudicial to the administration of justice.

2

Professional Conduct, Respondent Ehrlich, and to its
Judicial Liaison Judge, Respondent J. Donato, to
which they failed to respond. Appx.51a-52a, 11 1012 (AOB-Statement of the Case).
After the failure to respond by Ehrlich and J.
Donato, Jensen filed a Complaint in District Court
against J. Blumenstieel, J. Donato, and Chairman
Ehrlich, asking solely for injunctive and declaratory
relief from being barred from public access to the
bankruptcy court proceeding, from the sealing of the
docket and records of the case, and from the
Standing Committee's failure to accept and consider
Jensen's related complaint of attorney misconduct.
ER060-064 (First Amended Complaint ("FAC")Claims and Request for Relief).
Jensen's claims against J. Blumenstiel are based
on, inter alia, the following pleadings and arguments: 1) The impropriety and unconstitutionality of
secret attorney disciplinary proceedings, Appx.64a67a, sub-§D (AOB); 2) Discriminatory enforcement of
the Rules of Professional Conduct, Appx.71a, quoting
FAC (AOB). 3. J. Blumenstiers violation of the mandatory procedural requirements of Local Rule 11-6
which she cited as purported authority for barring
Jensen and the public from the proceeding, Appx.
60a-61a (AOB); and 4) Her improperly assumed
capacity as investigator and prosecutor as opposed to
a judge in the proceeding. Appx.62a, sub-§2 (AOB).
Jensen's claims against J. Donato and Chairman
Ehrlich are based on their violation of his and the
public's 1st Amendment right to petition the court
with reliable complaints of attorney misconduct.
Appx.73a-74a, sub-§5 (AOB).
Jensen's Complaint was dismissed sua sponte by

3

the District Court, Appx.47a (AOB), on the basis of J.
Blumenstiel's purported absolute judicial immunity
from complaints for injunctive and declaratory relief
under Mullis v. U.S. Bankruptcy Court, 828 F.2d
1385, 1394 (9th Cir. 1987), Appx.55a, §I.A (AOB); and
Jensen's purported lack of standing to sue J. Donato
and Chairman Ehrlich under Linda R.S. v. Richard
D., 435 U.S. 614 (1982). Appx.67a-68a, §II.1 (AOB).
After Jensen filed his Opening Brief ("AOB") and
Excerpts of Record ("ER"), DktEntry 2, respondent
judges filed an unopposed motion for extension of
time to file an answering brief, DktEntry 8-1, which
was granted, Appx.4a(Order); but instead filed a
motion for summary affirmation. DktEntry 12-1. The
motion was granted. Appx.2a (Order)
REASONS WHY THE WRIT SHOULD BE
GRANTED
1. The Panel failed to follow its own
precedent on summary affirmation.
The Panel's disposition notably lacks citation to
authority for its summary affirmation and of its
required standard of review. U.S. v. Hooton, 693
F.2d 857 (9th Cir. 1982) requires that "[m]otions to
affirm should be confined to appeals obviously
controlled by precedent and cases in which the
insubstantiality is manifest from the face of appellant's brief' (italics added). These requirements were
not followed by Respondents nor by the Panel.
Contrary to the requirements of Hooten, Mullis is
not obviously controlling, and Jensen's argument in
his Opening Brief that Mullis is factually and legally
inapposite and inapplicable is clearly substantial
because, inter alia, Jensen is a member of the public,

4

not a bankruptcy litigant as in Mullis, and under the
circumstances, did not have a bankruptcy litigant's
adequate remedies. Appx.55a-60a, §I.A (AOB). Moreover, Mullis does not involve a claim of violation of
the right to public access to the court, a constitutional question that should be reserved for and
decided only by an Article III Court. Appx.63a-64a,
sub-§C (AOB) (citing, inter alia, 28 U.S.C. § 1331).
Jensen further argued, inter alia, that under
controlling U.S. Supreme Court authority, e.g.
Northern Pipeline Construction Co. v. Marathon
Pipeline Co„ 458 U.S. 50 (1982), the bankruptcy
court, as an Article I court is of inferior and limited
jurisdiction, and is, therefore, tantamount to a state
court, and should be treated as such in regard to
judicial immunity and claims for injunctive and
declaratory relief. Appx.57a-59a, sub-§3 (AOB). In
that regard Jensen pointed out, inter alia, that 1)
The bankruptcy court did not have jurisdiction to
hear and decide constitutional questions, Appx.63a64a, sub-§C (AOB); 2) 28 U.S.C. §1361 applied to the
facts of this case, Appx.59a, n.6 and related text
(AOB); 3 and 3) Recent legislation analogously gave
explicit congressional approval under 42 U.S.C.
§1983 for a suit for declaratory relief against state
court judges and "implicitly overruled Mullis" on this
basis. Opp.16(ECF) (citing Brandon v. Reynolds, 201
F.3d 194, 198 (3d Cir. 2000) ("[T]he 96 amendments
to § 1983 were not intended to alter the availability
of declaratory relief against judicial officers.").
Jensen also cited favorable on-point and persu3 Citing Center for Constitutional Rights v. jeludge] Lind, 954
F.Supp.2d 389 (D.Md. 2013)(4th Cir.)(Suit under § 1361 for
denial of public access to court-martial proceedings).

5

asive authority that calls the holding of Mullis into
question, and demonstrates a significant circuit split
on the issue of an Article I judge's immunity from
injunctive and declaratory relief. See e.g. Detroit
Free Press v. Ashcroft [and Judge Creepy and Judge
Hacker], 303 F.3d 631 (6th Cir. 2002) (Affirming
district court's grant of preliminary injunction mandating right of public access to immigration court
(deportation) hearings).4 Appx. 59a-60a, sub-§b)
(AOB). Scruggs v. Moellering, 870 F.2d 376, 378 (7th
Cir. 1989) ("There is no judicial immunity for a claim
for injunctive relief." ... The Mullis "exception to
Pulliam" [466 U.S. 522 (1984)] for federal judges is
"of doubtful merit"). Appx. 58a (AOB) (citing
Scruggs). See also Lind (n.1 and related text) supra.
For the foregoing and following related reasons,
Mullis does not obviously control under the facts of
this case, and Jensen's arguments that it does not
are substantial. Summary affirmation was, therefore, inappropriate and a violation of Jensen's
statutory right of appeal. See also n.9, and related
text infra.
2. Jensen did not have any other adequate
or proper remedy.
Cases in other circuits question Mullis on the basis
that the requirement of no other adequate remedy
for granting equitable relief is adequate to screen
such claims against judges. Scruggs supra. Scruggs
4 Citing at 696, Richmond Newspapers v. Virginia, 448 U.S.
555, 584 (1980) ("[T]he First Amendment protects the public
and the press from abridgment of their rights to access to
information about the operation of their government, including
the judicial branch ...")(Stevens, J. concurring)(emphasis added
by Detroit Free Press).

6

points out that Mullis "is based on the proposition
that the plaintiffs remedy at law for an abuse of
federal judicial power is always adequate" (italics
added). However, Jensen was a member of the
public, not a litigant, when he was barred from the
In re Schwartz proceeding; and Jensen did not have
any other adequate remedy at law because the In re
Schwartz proceeding and its docket were sealed
preventing a motion and appeal in that court.5
Additionally, the Bankruptcy Court is not the proper
court to hear a constitutional claim. The District
Court had sole jurisdiction under 28 U.S.C. § 1331,
as well as a duty to hear such a claim. See Appx.63a64a, sub-§C (AOB). Colorado River Water Conservation Dist. v. United States, 424 U.S. 800, 817 (1976).
Therefore, Mullis is inapposite and inapplicable.
3. Judge Blumenstiel is not entitled to
absolute judicial immunity for denial of public
access to the court.
The Bankruptcy Court is an inferior court under the
jurisdiction of the District Court, therefore a
bankruptcy judge should be amenable to suit for
injunctive and declaratory relief in the District Court
under the circumstances of this case. Northern
Pipeline supra. 28 U.S.C. §§ 151, 157(a) and (b)(1),
5 A writ of mandamus was not the proper remedy because it
is uncertain to which court it could have been successfully
addressed, if any, and declaratory relief is in the "nature of
mandamus." 28 U.S.C. §1361. Appx.59a, n.6 and related text
(AOB). And see U.S ex rel. Girard Trust v. Helvering, 301 U.S.
540, 544 (1937)("[T]he writ of mandamus may not be employed
to secure the adjudication of a disputed right for which an ordinary suit affords a remedy equally adequate, and complete.").
Appx.64a, n.10 (AOB). Opp.15(ECF), n.2 and related text.

7

158(a). Appx.63a-64a, sub-§C (AOB). Giving such
absolute judicial immunity to a bankruptcy judge is,
in effect, an improper delegation of judicial power to
the Bankruptcy Court that violates Article III. Id.
Judge Blumenstiel cited Rule 11-6 as her authority for barring Jensen and the public from the In re
Schwartz proceeding. However, she was acting in
clear violation of the procedural and substantive
mandates of Rule 11-6, and therefore had no
legitimate authority or jurisdiction under it. Jensen
thoroughly explicated this circumstance in his briefs.
See Appx.60a-61a, sub-§B.1 (AOB). Opp.10-13
(ECF), sub-§2 ("Appellees misrepresent and misapply the procedural mandates of Rule 11-6").6
At the time Blumenstiel barred Jensen and the
public from the proceeding, she was improperly
acting in the investigative and prosecutorial capacity
of the Standing Committee under Rule 11-6(e)(1-4),
not in a judicial capacity under Rule 11-6(e)(5).
Appx.17a-19a (Rule). J. Blumenstiel, therefore, is not
entitled to judicial immunity. Appx. 62a-63a, sub-§§2
and 3(AOB); Opp.18(ECF), sub-§(B) (citing, inter
alia, Supreme Court of Virginia v. Consumers Union
of United States, Inc., 446 U.S. 719, 736 (1980).
Furthermore, common law does not recognize
absolute judicial immunity for the act of denial of
public access to the court, judicial act or not.
Otherwise there would be no such right.
6 J. Blumenstiel had no jurisdiction or authority under the
Rule because she was not assigned to the case under the
procedural mandates of 11-6(e)(4). Appx.18a(Rule). Furthermore, J. Blumenstiel did not make a finding of compelling
government interest, nor of narrow tailoring to protect the
public interest, nor does Rule 11-6(e) provide for such. Center
for Auto Safety infra ("presumption of public access." required).

8

4. Secret attorney disciplinary proceedings
are improper and unconstitutional.
Local Rule 11-6(e) is not valid authority for
secret attorney disciplinary proceedings.
Local Rule 11-6(e) is not valid authority for secret
attorney disciplinary proceedings. Without statutory
or common-law authority for such secrecy, the Rule
cannot stand. None has been cited and none exists.
Cf. Gorbach v. Reno, 219 F.3d 1087, 1091 (9th Cir.
2000)(en banc)(The regulation "is void because of the
absence of statutory authority for it"). Rule 11-6(e) is
also improperly inconsistent with the Federal Rules
of Civil Procedure, Rule 83. Brown v. Crawford Co.,
Ga., 960 F.2d 1002, 1008-1009 (11th Cir. 1992)("A
local rule must be consistent with [ ] federal statutes
and rules adopted under 28 U.S.C. §§2072 and
2075."). The Federal Rules do not provide for a secret
class of court proceedings; the common law requires
the presumption of open hearings, and where secrecy
is deemed to be required, a court must provide
proper justification for it. Appx.66a-67a, sub-§3
(AOB) (citing Press Enterprises infra). See also
Richmond Newspapers, Detroit Free Press, Lind,
supra, and Center for Auto Safety v. Chrysler Group,
LLC, 809 F.3d 1092, 1096 (9th Cir. 2016) (requirement of "presumption of public access").
Furthermore, secrecy of attorney disciplinary
proceedings is a constitutional question that should
not be decided by a local rule. L.
Secret attorney disciplinary hearings are
inconsistent with prevailing practice.
Secret attorney disciplinary proceedings are
inconsistent with prevailing practice and the ABA

9

Model Rules for Lawyer Disciplinary Enforcement.
ABA Model Rule 16, and the ABA Clark Commission, and McKay Commission recommendations
from which Model Rule 16 arises, call for public
attorney disciplinary proceedings. See ABA report of
the (McKay) Commission on Evaluation of Disciplinary Enforcement (1991), Recommendation 7
(Recommending totally open proceedings). ABA
Special (Clark) Commission on Evaluation of Disciplinary Enforcement, Problems and Recommendations in Disciplinary Enforcement (1970) p.143
(Secrecy "denies the public information" that would
demonstrate effective enforcement)(quoted by Daily
Gazette infra at 712). California attorney disciplinary
proceedings are public, and such proceedings are
now public upon the filing of formal charges in all
but 11 states. See Mark Harrison, Osborn Maledon,
"Public access to Attorney Disciplinary Proceedings
and Records." 7 Appx.66a, sub-§2 (AOB).
(c) Secret Attorney Disciplinary Proceedings are
Unconstitutional
Attorney disciplinary proceedings have, historically, been open to the public until they were only
recently taken over by the organized bar in the early
1900's, with "scandalous" results. E.g. Ex Parte Wall,
107 U.S. 265 (1883)(Involving public attorney disciplinary proceedings). And see Leslie Levin, "Case for
less Secrecy in Lawyer Discipline," 20 Georgetown
Journal of Legal Ethics 1, 1, 10-17 (2007). The ABA
Clark Commission (1970) and McKay Commission
(1989-1991) were created because the state of secret
7 Paper produced for distribution at the APRL Annual
Meeting on Saturday, August 1, 2009.

10

attorney discipline was "scandalous." Id. There is,
therefore, no historical or principled basis for secret
attorney disciplinary hearings, the first prong of the
Press Enterprises test of whether secret court
proceedings are unconstitutional under the 1st
Amendment right to public access to the courts.
Press Enterprises v. Superior Court, 478 U.S. 1, 1011 (1986). The second prong of the Press-Enterprises
test - the positive benefits of public scrutiny - has
been met in this case, and by the Clark and McKay
Commission reports and recommendations. Appx.
66a-67a, sub-§3 (AOB). Levin supra at 38-42. Daily
Gazette Co. v. Committee on Legal Ethics, 326 S.E.2d
705, 711 (W.Va. 1984) (Secrecy improperly "favors
insulating the legal profession from adverse publicity
over the public interest" in open proceedings).
The necessity of public scrutiny is demonstrated
in this case because, inter alia, Jensen's related
reliable complaint of attorney misconduct was
ignored showing discriminatory enforcement of the
Rules; J. Blumenstiel acted outside her jurisdiction
and authority in violation of the procedural and
substantive mandates of Rule 11-6(e); and J.
Blumenstiel was improperly acting as investigator,
prosecutor and judge in the In re Schwartz case. See
Williams v. Pennsylvania, 136 S. Ct. 1899, 1905
(2016)("An unconstitutional potential for bias exists
when the same person serves as both accuser and
adjudicator at the same time."). Appx.61a-62a (citing
Williams); 62a, sub-§2 (citing Supreme Court of Va.
supra) (AOB). These circumstances clearly show the
necessity of public scrutiny of attorney disciplinary
proceedings, and the danger of such secrecy.
Moreover, prosecution of attorney misconduct is

11

held to be for the purpose of, inter alia, protecting
"the public from prejudice." Ex Parte Wall supra at
288. If so, it is plainly clear that the protection of the
public requires attorney disciplinary proceedings to
be public. The public cannot be deemed "protected"
by secret proceedings because they allow unreasonable, arbitrary, and discriminatory enforcement to
go undetected. "An open disciplinary system demonstrates its fairness to the public. Secret records and
secret proceedings create public suspicion regardless
of how fair the system actually is. A fully open
system will preclude the possibility of disciplinary
officials committing improprieties ..." as is made
evident in this case. ABA Lawyer Regulation for a
New Century, Sept. 18, 2018, p. 34.
5. Article III case or controversy "standing"
law is not applicable to denial of public access
to the court.
The Panel's cited case, Robbins v. Spokeo, 867 F.3d
1108, 1111 (9th Cir. 2017), in its Order (Appx.3a)
denying Jensen's standing is, like Mullis, factually
and legally inapposite. Robbins is not a 1st Amendment petition case, and 1st Amendment standing is
distinctive as to "intangible" injury because of the
significance of 1st Amendment rights. Refusal to
accept and duly consider reliable complaints of attorney misconduct is significant because it threatens
self-government and checking of government abuses.
Moreover, Article III's enumerated controversies
do not mention or apply to the Court itself, and the
case law interpreting Article III case or controversy
provisions apply only to other branches of the
government. Appx.69a-70a, sub-§2 (AOB). Flast v.

12

Cohen, 392 U.S. 83, 100-101 (1968) ("The question
whether a particular person, is a proper party to
maintain the action does not, by its own force, raise
separation of powers problems related to improper
judicial interference in areas committed to other
branches of the Federal Government.")(italics
added). Thread v. U.S., 354 U.S. 278, 281 (1957)
(The federal court has "autonomous control over the
conduct of their officers"). Opp.29(ECF), sub-§(B)
(citing Thread). In other words, the Court has
inherent supervisory jurisdiction and duty when it is
policing itself rather than other branches of the
government. Jensen's "standing" is, therefore,
covered by constitutional provisions other than
Article III. One is Jensen's pleaded violation of his,
and the public's 1st Amendment right to petition the
court with a reliable complaint of attorney misconduct. The other is the Court's constitutionally
implied duty to maintain the integrity of its officers
and the judicial process, and its explicit ethical duty
to act on reports of attorney misconduct. Thread
supra (The court is "an instrument or agency to
advance the ends of justice"). Appx.67a, n.12 and
related text (AOB)(citing and quoting relevant codes
of judicial conduct).
Denial of the right to petition the court with a
reliable complaint of attorney misconduct is, or
should be held to be, a species of denial of public
access to the court that is an injury per se, no other
injury should be required, and strict scrutiny should
be applied. Appx.72a-74a, sub-§§ 4-5 (AOB). Center
for Auto Safety, supra, ("The presumption of access is
`based on the need for federal courts, although
independent - indeed, particularly because they are

13

independent - to have a measure of accountability
and for the public to have confidence in the
administration of justice'."). Ex Parte Wall supra at
269 (Demonstrating a history of complaints of
attorney misconduct by the public received and acted
on by the federal court). Notably, the complaint in
Wall did not involve a personal injury to the
complainant. Opp.26(ECF) (citing Center for Auto
Safety and Ex Parte Wall.) And see Rules of the U.S.
Court of Federal Claims, Rule 83.2(g)(2) ("The Clerk
of the Court must refer to the Standing Panel: [ ]
any complaint received from a member of the
public.")(emphasis added). See also Levin supra at
17 (Complaints "come from clients, from other
lawyers, from third parties, and occasionally from
judges")(emphasis added). And compare Newman v.
Piggie Park Enterprises, Inc., 390 U.S. 400, 402
(1968) ("When a plaintiff brings an action [regarding
public access to the court], he does so not for himself
alone, but also as a 'private attorney general,'
[advancing] the public interest by invoking the
injunctive powers of the federal courts.")(text in
brackets substituted for text in original). Flast at 109
(Standing may be "very great when measured by a
particular constitutional mandate")(J. Douglas concurring). Scripps-Howard Radio, Inc. v. FCC, 316
U.S. 4, 14-15 (1942)("That a court is called upon to
enforce public rights and not the interests of private
property does not diminish its power to protect such
rights. ... Courts no less than administrative bodies
are agencies of government. Both are instruments
for realizing public purposes."). Appx. 70a, sub-§3
(AOB) (citing Scripps).
Jensen has, nevertheless, met the case or contro-

14

versy requirement of personal injury, as well as
intangible 1st Amendment injuries, on the bases of
personal injuries from prior attorney misconduct, the
ongoing impact it has had on his 1st Amendment
advocacy activities, and the Standing Committee's
refusal to accept and duly consider Jensen's reliable
complaint of attorney misconduct that required
much unremunerated time and effort to produce,
which was wasted. Appx.74a-75a, sub-§6 (AOB).
Opp:27(ECF), sub-§(C) (citing U.S. v. Students
Challenging Regulatory Agency Procedures (Scrap),
412 U.S. 669, 685-690 (1973). See also § 6(b) below.
The Standing Committee's refusal to accept and
duly consider Jensen's reliable complaint of attorney
misconduct has chilled Jensen's and the publics
submission of attorney misconduct complaints, and
is a "present inhibitory effect" on Jensen's 1st
Amendment petition rights.8 See Laird v. Tatum,
408 U.S. 1, 11 (1972)("Chilling effect" may arise from
"governmental regulations that fall short of a direct
prohibition"), p.25 (J. Douglas and Marshall
dissenting), pp.38-39 (J. Brennen, Stewart, and
Marshall dissenting). Furthermore, rejection of all
complaints from the public, including those that are
reliable, as is Jensen's, is an overbroad prohibition.
Judges, and the court have an ethical duty to
consider such complaints regardless of their source.
ABA Model Code of Judicial Conduct, Canon 2.15(D);
and Code of Conduct of United States Judges, Canon
3(b)(5). Appx.67a n.12 (AOB)(quoting Codes).
8 Jensen's experience, see sub-§6(b) infra, and this case
demonstrate that attorney misconduct prejudicial to the
administration of justice will continue to occur until attorneys
can't so easily get away with it.

15

6. Jensen's pending Motion is not moot.
The Court of Appeal's errors and its failure to
correct them impeaches the Panel's and the Court's
process.
Jensen's pending Motion, Appx.21a; and Supporting Declaration, DktEntry 7-2, concern, in part,
unreasonable and prejudicial errors in the listing of
Jensen's prior case on the docket of the Court of
Appeals. Jensen had only one prior district court
case reversed on the first appeal and affirmed on the
second. There were, however, four purported prior
cases, none ECF, originally listed on the docket. One
was a criminal case that did not involve any party
named Jensen. A second error was a case with a
defendant named "Tom Jensen," but the docket
identifies him only as "an individual defendant." The
remaining two listed cases concerned Jensen, but the
listing of them did not show that they involved the
same district court case and two successive appeals.
See, inter alia, Appx.22a-24a, ¶¶ 1-7; 26a-27a, sub§3; 27a-28a, sub-§B (Motion). The two cases in which
Jensen was not a party have been deleted, but
Jensen's prior case is still not listed correctly. The
prejudicial and unreasonable nature of the foregoing
errors are relevant to this Petition as general
impeachment of the Panel and its process.
The Motion provides evidence supporting
Jensen's standing.
The additional relevant issue raised in Jensen's
Motion is that the circumstances of his prior case are
relevant to and evidence of his standing to assert his
personal and public right to submit complaints of
attorney misconduct to the Court because "[a]ttorney

16

misconduct is involved in the prior case, and it shows
that attorney misconduct has a long history in this
court causing wrongful judgments to be made."
Appx. 33a(Motion). As part of the grounds for such
consideration, Jensen's Motion cites and quotes
Penelope Pether, "Constitutional Solipsism: Toward
a Thick Doctrine of Article III Duty, or Why the
Federal Circuits' Nonprecedential Status Rules Are
(Profoundly) Unconstitutional," 17 William and
Mary Bill of Rights Journal, 955, 961 (2009) - citing
and quoting 9th Circuit former Judge Alex Kozinski.
See Appx. 34a(Motion):
"[U]npublished decisions 'are not safe for
human consumption,' because of the `[judicial]
fear that they may say something that is
wrong.' Judge Kozinski admitted that
lu]npublished dispositions - unlike opinions —
are often drafted entirely by law clerks and
staff attorneys. ... [T]hey cannot conceivably
be presented as the view of the Ninth Circuit
Court of Appeals. To cite them as if they were
- as if they represented more than the bare
result as explicated by some law clerk or staff
attorney — is a particularly subtle and
insidious form of fraud'." 9

9 Such a disposition is not an appeal as of right, and is
instead an improperly abbreviated appellate process - a de facto
certiorari procedure. Pether at 962. See also Stanley v.
Illinois, 405 U.S. 645, 656 (1976)("[T]he Constitution recognizes
higher values than speed and efficiency. Indeed, one might
fairly say of the Bill of Rights in general, and the Due Process
clause in particular, that they were designed to protect the
fragile values of a vulnerable citizenry from the over zealous
concerns for efficiency and efficacy ...").

17

Jensen also cited the Appeals Court's judicial
notice of Jensen's prior case as grounds for arguing
and providing evidence that he did not receive a full
and fair hearing in his prior case, it was wrongly
decided, and he did not have a genuine opportunity
for correction of its errors on appeal because of
attorney and judicial misconduct.10 Appx.32a-37a,
sub-§5 (Motion). Jensen's Motion and Supporting
Declaration provide evidence that he was injured by
attorney misconduct because the decisions in his
prior case were based solely on inadmissible hearsay
in support of defendants' defense. This involved,
among other things, declarations by defendants of
purported facts that were not based on their
personal knowledge, i.e. perjury, and suborning of
perjury by their attorneys. Jensen was also injured
by judicial misconduct. The case was reversed in
part on the first appeal because the district judge
failed to treat the pleaded facts as true as she was
obligated to do by law. Appx.34a-37a, sub-§(b)
(Motion). Similarly on summary judgment, the
10 The facts and claims of Jensen's prior case are the neglect
of Jensen's mother's personal and health care in a residential
care facility for the elderly and retaliation against Jensen for
reporting it and advocating for its correction which retaliation
was ratified by the defendant state regulatory agency. Jensen's
mother suffered much and ultimately unnecessarily died of
complications of an untreated urinary tract infection, signs and
symptoms of which Jensen reported less than a year before she
finally developed "acute pyelonephritis [kidney infection] with
right staghorn calculus [kidney stone], [and] bacteremia [blood
infection]." Jensen's mother's medical records show that this
infection was acquired during a previous hospitalization and
was not monitored or treated thereafter by her defendant
doctor who ignored Jensen's reports. Appx.35a-36a, n.2 and
related text (Motion).

18

second district judge improperly treated defendants'
disputed declarations based on inadmissible hearsay
as true. See Appx.36a, n.3 and related text (Motion).
This experience, among others like it in his volunteer
1st Amendment advocacy activities, motivated and
informed Jensen's complaint of attorney misconduct
to the Standing Committee.
The foregoing injuries are not merely personal to
Jensen. The public was also substantially injured by
the Court's ratification of elder abuse, retaliation for
reporting it, and attorney and judicial misconduct
supporting it. This is demonstrated by the 6/28/2019
San Francisco Daily Journal article titled "An
Unspoken Epidemic: Elder Neglect in Assisted
Living Facilities," by Kathryn Stebner and Carmen
Guadagni, decrying the current state of such care
and its continuing negligent oversight by the state
regulatory agency. Petition for Rehearing, DktEntry
21, p.10(ECF) (citing Daily Journal article). Jensen's
prior case was filed nearly 20 years ago. There is no
doubt that the state of such care would have been
better if Jensen's case had been properly decided in
his favor, and there is no doubt that the Court's
ratification of the abuse of Jensen's mother, the
retaliation for reporting it, and the attorney and
judicial misconduct supporting it, has had and
continues to have a significant impact on the
public." These facts invoke the Court's duty to
consider its errors and take meaningful measures to
prevent them such as accepting and duly considering
complaints of attorney misconduct from the public.
11 Jensen's prior case was brought before this Court on a
petition for writ of certiorari which was denied. Tom Jensen v.
Sweet Home Care Facility, Case No. 06-546.

19

Jensen's Motion, therefore, is not moot but is
evidence of his and the public's "standing" to submit
reliable complaints of attorney misconduct to the
Standing Committee, and the District Court's duty
to accept and consider them.
CONCLUSION
A Bankruptcy Court judge should not be
absolutely immune from complaints for injunctive
and declaratory relief for denial of public access to
the court. The Court of Appeal's summary
affirmation denied Jensen an appeal as of right;
Mullis, as applied in this case, is inapposite and
inapplicable; a Bankruptcy judge does not have the
jurisdiction or authority to decide constitutional
questions; and constitutional questions are reserved
for an Article III court.
Attorney disciplinary proceedings before a
judge in a District or Bankruptcy Court should not
be secret. Attorney disciplinary proceedings have a
long history of being public, and the reasons why
they should be public are amply demonstrated by
this case, and by ample authority. Public proceedings
are necessary to protect the integrity of the process
and the public's confidence in it.
The public should have a right to submit reliable complaints of attorney misconduct to the court,
and the court has a constitutional and ethical duty to
duly consider them because attorney misconduct and
effective enforcement of the Rules of Professional
Conduct are matters of utmost public concern, and
acceptance and due consideration of such complaints
is necessary to protect the integrity of the judicial
process and the public's confidence in it.

20

Respectfully Submitted by,
1st Tom Jensen
Tom Jensen,
P.O. Box 614
Oakland, CA 94604
(510) 325-3142
ienstomj@gmail.com
Respondent in pro per

21

